   October 6, 2005




Financial Management
Management of the National
Committee for Employer Support of
the Guard and Reserve
(D-2006-006)




               Department of Defense
           Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit, Audit Followup and Technical Support at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact Audit Followup and
 Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
 Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

ASD(RA)              Assistant Secretary of Defense for Reserve Affairs
COR                  Contracting Officer’s Representative
DCC-W                Defense Contracting Command-Washington
ESGR                 Employer Support of the Guard and Reserve
FAR                  Federal Acquisition Regulation
GAO                  Government Accountability Office
OMB                  Office of Management and Budget
RDD                  Regional Deputy Director
               Department of Defense Office of Inspector General
Report No. D-2006-006                                                   October 6, 2005
  (Project No. D2004-D000LA-0209.000)

           Management of the National Committee for Employer
                  Support of the Guard and Reserve

                                Executive Summary

Who Should Read This Report and Why? Assistant Secretary of Defense for Reserve
Affairs (ASD[RA]), Employer Support of the Guard and Reserve (ESGR), Defense
Contracting Command-Washington (DCC-W), and other DoD personnel responsible for
providing operational support to ESGR should read this report. This report provides
information on the administration and management of ESGR operations.

Background. This audit was performed in response to a July 2004 request by ASD(RA).
Specifically, ASD(RA) requested (Appendix B) that we review contracts awarded for the
last 2 fiscal years, financial records, and the management and control environment of the
ESGR.

ESGR is organizationally aligned under the Under Secretary of Defense for Personnel
and Readiness and reports through the ASD(RA). ASD(RA) exercises authority,
direction, and control; provides guidance and assistance in the development of budgetary
requirements; and determines the size and manning distribution of the military staff at
ESGR. The Defense Human Resource Activity, a DoD field activity under the Under
Secretary of Defense for Personnel and Readiness, provides civilian workforce
administration, budgeting, and other support to ESGR. For the contracts discussed in this
report, ESGR received contracting support from the DCC-W, the Department of the
Interior, and the Department of the Treasury. The DCC-W, a field operating activity
within the Office of the Administrative Assistant to the Secretary of the Army, is
responsible for executing the DoD Executive Agent mission of providing administrative
contracting support to all DoD activities within the National Capital Region.

The mission of ESGR is to gain and maintain active support from both public and private
employers for the men and women of the National Guard and Reserves, as demonstrated
by employer commitment to employee military service. The ESGR mission is
accomplished through recruitment and organization of volunteers carrying the employer
support message to the local level. ESGR has 55 committees (1 in each state, the District
of Columbia, Guam, Puerto Rico, the Virgin Islands, and Europe) comprised of 4,500
volunteers who carry out the mission. The headquarters for ESGR, comprised of DoD
civilians, contractors, and military personnel, administer ESGR activities and provide
administrative, logistical, and training support to committee volunteers.

Results. ESGR did not adequately administer and manage aspects of its operations,
specifically in the areas of control environment and personnel management, travel and
expense accountability, and acquisition and contracting. Improvements in the areas of
management accountability and control when implemented will enable ESGR to operate
more effectively and efficiently. ASD(RA) should develop and implement procedures to
provide oversight, direction, and control of ESGR operations. ESGR needs to implement
a management control program; develop headquarters-level standard operating
procedures to address all operating functions, policies, procedures, controls, and
organizational relationships; and develop a property management program (finding A).

Contracting procedures in support of ESGR operations were not followed. Specifically,
the DCC-W did not properly certify a sole-source justification; and ESGR allowed
out-of-scope activity, conducted inadequate surveillance, and did not establish an
effective ordering and receiving process for fulfillment contracts. As a result, ESGR
cannot be assured that it received the best contracting solutions; it paid fair and
reasonable prices for goods purchased; the contractor performed the requirements of the
contract; and it received goods purchased. ESGR should develop a surveillance plan to
monitor current and future fulfillment and personnel services contracts; develop standard
operating procedures for ordering and receiving processes associated with fulfillment
contracts, and conduct adequate contract administration and surveillance (finding B).
See the Findings section of the report for the detailed recommendations.

Management Comments and Audit Response. ASD(RA) and the Executive Director
of the National Committee for ESGR concurred with the findings and recommendations.
The Assistant Secretary and the Executive Director have initiated a series of actions to
strengthen the management control environment at the ESGR. Those actions, when
completed, will bring ESGR in compliance with existing guidance. The Commander,
DCC-W did not comment on Recommendation B.2. See the Findings section of the
report for a discussion of the management comments and the Management Comments
section of the report for the complete text of comments.

Audit Response. Management comments from the Assistant Secretary and the
Executive Director were responsive to the report recommendations. Implementation of
ESGR actions by the Assistant Secretary and Executive Director should strengthen the
ESGR management control environment and enable more efficient and effective
operations. We request that the Commander, DCC-W provide comments on
Recommendation B.2. by November 7, 2005.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    3

Management Control Program Review                                             3

Findings
     A. Employer Support of the Guard and Reserve Administration and
         Management of Operations                                             5
     B. Award and Administration of the Fulfillment and Personnel Services
         Contracts                                                           14

Appendixes
     A. Scope and Methodology                                                29
         Prior Coverage                                                      31
     B. Assistant Secretary of Defense for Reserve Affairs Audit Request     32
     C. Report Distribution                                                  33

Management Comments
     Assistant Secretary of Defense for Reserve Affairs and National
        Committee for Employer Support of the Guard and Reserve              35
Background
           In July 2004, the Assistant Secretary of Defense for Reserve Affairs (ASD[RA])
           requested (Appendix B) an audit of the financial management and organization
           operations of the Employer Support of the Guard and Reserve (ESGR).
           Specifically, the ASD(RA) requested we review contracts awarded during FYs
           2003 and 2004, financial records, and the management and control environment
           of ESGR. ASD(RA) also requested recommendations to improve the financial
           control environment, ESGR oversight and efficiency, and preclude reoccurrence
           of existing conditions. In May 2004, ASD(RA) rescinded ESGR authority to
           commit or obligate Federal funds or enter into any contractual agreement.

           Alignment. ESGR is organizationally aligned under the Under Secretary of
           Defense for Personnel and Readiness and reports through the ASD(RA).
           ASD(RA) exercises authority, direction, and control; provides guidance and
           assistance in the development of budgetary requirements; and determines size and
           manning distribution of the military staff at the ESGR. The Defense Human
           Resource Activity, a DoD field activity under the Under Secretary of Defense for
           Personnel and Readiness, provides civilian workforce administration, budgeting,
           and other support to ESGR.

           History. ESGR was established in 1972 by Presidential proclamation. The
           primary goal of ESGR is to promote cooperation and understanding between
           Reserve component members and their civilian employers, as well as assist with
           the resolution of any conflict that might arise from an employee’s military
           commitment. Approximately 46 percent the total available workforce of the U.S.
           Armed Forces is comprised of the Nation’s Ready Reserve1 component. The
           2002 National Defense Strategy states that the National Guard and Reserve, while
           decreasing in size, will serve as full partners in the fully integrated total force.

           Mission. The ESGR mission is to maintain active support from public and
           private employers for the men and women of the National Guard and Reserves.
           ESGR pursues that mission through recruiting and organizing volunteers who
           carry the message of employer support to the local level. Some of the programs
           and activities that ESGR committees perform include:

                   •    Statements of support - provide a way for employers to publicly
                        demonstrate their support for their National Guard and Reserve
                        employees.

                   •    Bosslifts - provide employers an opportunity to observe the leadership,
                        technical training, and team-building skills in an environment with
                        modern military equipment.




1
    The Ready Reserve is composed of military members of the Reserve and National Guard, organized in
    units or as individuals, who are subject to recall to active duty to augment the active components.



                                                     1
                    •   Briefings with the boss - provide a forum for employers, unit
                        commanders, ESGR members, and community leaders to discuss
                        issues that relate to employee participation in the National Guard and
                        Reserve.

                    •   Ombudsmen services - provide information and mediation services for
                        Reserve component members and their employers to promote mutual
                        understanding, gain employer support, and ensure compliance with the
                        Uniformed Services Employment and Reemployment Rights Act of
                        1994.

           Uniformed Services Employment and Reemployment Rights Act of 1994.
           The Uniformed Services Employment and Reemployment Rights Act of 1994
           provides reemployment protection and other benefits for veterans and employees
           who perform military service. The Act clarifies the rights and responsibilities of
           National Guard and Reserve members as well as their civilian employers. The
           ESGR Ombudsmen Services Program provides information, counseling, and
           informal mediation of issues relating to compliance with the law. Training on the
           Uniformed Services Employment and Reemployment Rights Act of 1994 is
           available to all ESGR members, military unit trainers, human resource managers,
           and other interested parties.

           Organizational Structure. DoD Directive 1250.1, “National Committee for
           Employer Support of the Guard and Reserve (NCESGR),” April 13, 2004, states
           that the Executive Director manages ESGR programs and directs the activities of
           ESGR headquarters. ESGR headquarters is made up of DoD civilians,
           contractors, and military personnel who administer activities for ESGR, as well as
           provide administrative, logistical, and training support to ESGR committees.

           The National Chair is the lead volunteer and responsible for advising the ESGR
           Executive Director about organizing and directing ESGR activities. Each state,
           the District of Columbia, Guam, Puerto Rico, the Virgin Islands, and Europe have
           a committee. ESGR has 55 committees and approximately 4,500 volunteers
           supporting the ESGR mission. The committees are typically composed of the
           following types of staff:

                    •   Committee chairperson - leads, directs, and supervises committee
                        activities to link employers with the U.S. military.

                    •   Executive director - provides committee operation continuity and
                        coordination while assisting the committee chairperson.

                    •   Program support specialist2 - supports the state or territory National
                        Guard and other Reserve Component offices concerning ESGR
                        programs, program activities, and support requirements.




2
    An April 2004 Memorandum of Understanding between the National Guard Bureau and ESGR
    established one full-time program support specialist position to support each ESGR committee.



                                                      2
           Budget. From FY 2002 to FY 2003, the budget for ESGR went from $4 million
           to $12 million, an increase of 200 percent, and is projected to remain near
           $10 million through FY 2009.


Objectives
           Our overall audit objective was to evaluate the operations and financial
           management of ESGR. Specifically, we determined whether contracting and
           financial operations were conducted in accordance with applicable policies and
           regulations. We also reviewed internal controls and the management control
           program as they related to the overall objective. See Appendix A for a discussion
           of the scope and methodology and prior coverage related to the objectives.


Management Control Program Review
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of the management controls over ESGR operations and financial
           management. Specifically, we reviewed plans, methods, and procedures ESGR
           used to meet its missions, goals, and objectives. We determined whether ESGR
           management controls in the areas of control environment and personnel
           management, travel and expense accountability, and acquisition and contracting
           provided reasonable assurance in achieving effective and efficient operations, and
           complied with applicable laws and regulations. We also reviewed management
           control procedures for awarding and managing three fulfillment3 and four
           personnel services contracts in support of ESGR. Additionally, we determined
           whether contracting officials followed prescribed procedures for awarding and
           managing the contracts. We reviewed ESGR’s surveillance of contracts and
           determined whether self-evaluation of management controls adequately met the
           requirements and intent of DoD Directive 5010.38 and DoD Directive 5040.40.

           Adequacy of Management Controls. We identified management control
           weaknesses for ESGR and Defense Contracting Command-Washington (DCC-W)
           as defined by DoD Instruction 5010.40. ESGR management controls of the
           control environment and personnel management, travel and expense
           accountability, and acquisition and contracting did not ensure effective and
           efficient operations. DCC-W management controls did not ensure that contracts
           were awarded in accordance to prescribed policies and procedures. Also, ESGR
           and DCC-W controls did not ensure that adequate surveillance was performed on
           the fulfillment and personnel services contracts. The recommendations, if
3
    Fulfillment refers to carrying out an order.



                                                   3
implemented, will correct the identified weaknesses. A copy of the report will be
provided to the senior officials responsible for management controls in the Office
of the Under Secretary of Defense for Personnel and Readiness, ASD(RA), the
Department of the Army, ESGR, and DCC-W.

Adequacy of Management’s Self-Evaluation. ESGR officials did not identify
the control environment and personnel management, travel and expense
accountability, and acquisition and contracting aspects of its operations as
assessable units; therefore, ESGR did not identify the material management
control weaknesses identified by this audit.

In FY 2004 and FY 2005, DCC-W reported no material weaknesses. However,
DCC-W identified two areas of concern regarding contract award. The two areas
of concern were the application of the urgency exceptions to full and open
competition and the need for adequate price reasonableness and single source
justification documentation for procurement. DCC-W implemented actions did
not correct these weaknesses. DCC-W did not identify contract surveillance as an
assessable unit or area of concern and, therefore, did not identify or report the
material management control weakness identified by the audit.




                                     4
                   A. Employer Support of the Guard and
                      Reserve Administration and
                      Management of Operations
                           ESGR did not adequately administer and manage aspects of its
                           operations, including the control environment and personnel
                           management, travel and expense accountability, and acquisition
                           and contracting. This condition occurred because ESGR did not
                           have an effective program for management accountability and
                           control. Improvements in these areas are needed and will enable
                           ESGR to operate more effectively and efficiently, and identify
                           weaknesses in the future.


Management Accountability and Control
           Federal Policy. Office of Management and Budget (OMB) Circular A-123,
           “Management Accountability and Control,” June 21, 1995,4 defines management
           controls as the organization, policies, and procedures that agencies use to
           reasonably ensure that programs achieve their intended results. The circular
           further states that the agencies must reasonably ensure that resources are used
           consistent with agency mission; programs and resources are protected from waste,
           fraud, and mismanagement; laws and regulations are followed; and reliable and
           timely information is obtained, maintained, reported, and used for decision
           making.

           OMB Circular A-123 provides guidance for establishing, assessing, correcting,
           and reporting on management controls in programs and operations and requires
           the involvement of all management to ensure that management controls are
           adequate. The circular states that organizations should establish cost-effective
           management control systems to provide reasonable assurance that program
           activities are effectively and efficiently managed to achieve the goals of the
           organization. Appropriate management controls should be established and
           integrated into each system to direct and guide operations.

           The Government Accountability Office (GAO) “Standards for Internal Control in
           the Federal Government,” November 1999, describes the standards for internal
           control as control environment, risk assessment, control activities, information
           and communications, and monitoring. These standards provide a general
           framework for internal controls and define the minimum level of quality
           acceptable for internal control in Government, as well as provide the basis against
           which internal controls are evaluated. The standards apply to all aspects of an
           agency’s operations: programmatic, financial, and compliance. Management is
           responsible for developing the detailed policies, procedures, and practices to fit


4
    OMB issued revised Circular A-123 on December 21, 2004, to be effective beginning with FY 2006. In
    the interim, Circular A-123 dated June 21, 1995, should continue to be followed.



                                                    5
     their agency’s operations and for ensuring that the policies, procedures, and
     practices are an integral part of operations.

     DoD Policy. DoD Directive 5010.38, “Management Control (MC) Program,”
     August 26, 1996, establishes DoD policy for management control. The policy
     states that each DoD Component must implement a comprehensive strategy for
     management control to ensure the following: obligations and costs comply with
     applicable law; assets are safeguarded against waste, loss, and unauthorized use;
     revenues and expenditures are properly recorded and accounted for; programs and
     operating functions are efficiently and effectively carried out; the management
     control process emphasizes prevention of waste, fraud, and mismanagement; and
     management control weaknesses are corrected in a timely manner.


Internal Controls
     ESGR did not adequately administer and manage aspects of its operations,
     including the control environment and personnel management, travel and expense
     accountability, and acquisition and contracting. Although specific weaknesses
     identified were not individually significant, the totality of those weaknesses
     created an atmosphere conducive to mismanagement and waste.

     Internal Control Standards. We identified deficiencies in internal controls
     related to the control environment, control activities, and information and
     communication. Effective internal controls require that management establish
     and maintain an environment throughout the organization that sets a positive and
     supportive attitude toward control conscientious management. A positive control
     environment is the foundation for all other standards; it provides discipline and
     structure as well as the climate that influences the quality of internal control.
     Control activities are defined as the policies, procedures, techniques, and
     mechanisms that enforce management’s directives. Examples of control activities
     include management of human capital, accurate and timely execution and
     recording of transactions, accountability for resources, and appropriate
     documentation of transactions and internal control. Information should be
     recorded and communicated to management that will enable them to carry out
     their internal control and other management responsibilities.

     Management Control Program. In January 2005, a senior official from ESGR
     acknowledged that the organization had not established a management control
     program. Management controls are especially critical to ESGR for use in guiding
     the activities and efforts of its volunteers and widely dispersed operations.

     Control Environment and Personnel Management
     ESGR did not establish a clearly defined organizational structure, did not develop
     comprehensive policies and procedures, and did not effectively manage their
     personnel. That condition occurred because ESGR placed little emphasis on
     establishing controls that would guide the organization in achieving its objectives.



                                          6
           Organizational Structure. A key aspect of an organization’s control
           environment is organizational structure. Such structure provides a framework for
           planning, directing, and controlling operations. An effective internal control
           environment requires that an organization clearly define key areas of authority,
           responsibility, and appropriate lines of reporting. “ESGR Policies and
           Procedures, Operational Guidelines,” issued in December 1997 and 2000,
           established basic organizational charts and provided brief descriptions of the roles
           and responsibilities for several ESGR positions. However, the guidance was not
           of sufficient detail to clearly describe the structure of the organization. For
           example, although the majority of the ESGR mission is carried out by its
           volunteers, the “Employer Support Program Guide,” issued in October 2003, did
           not include an organizational chart that depicts how the committees and
           volunteers are part of the organization. The ESGR organizational chart should
           show that the 55 committees report to their respective Regional Deputy Directors
           (RDDs).5

           Policies and Procedures. ESGR had not established and implemented
           comprehensive standard operating procedures at its headquarters to ensure its
           operations were efficiently and effectively carried out. Management is
           responsible for developing detailed policies, procedures, and practices to fit their
           agency’s operations and for ensuring that internal controls are an integral part of
           operations. Control activities are an integral part of an entity’s planning,
           implementing, reviewing, and accounting of Government resources and achieving
           effective results. The absence of an effective program of management controls
           allowed ESGR officials to make decisions based on personal judgment rather than
           established policies and procedures. ESGR must establish policies and
           procedures at the headquarters level to effectively manage the majority of its
           operations carried out by volunteers throughout the world and to help ensure
           continuity of operations. ESGR began drafting plans and expects to complete
           standard operating procedures for National headquarters by October 2005.

           Volunteer Agreement. ESGR did not have internal management controls in
           place to account for and govern volunteer services provided by local committee
           members. ESGR did not comply with DoD Instruction 1100.21, “Voluntary
           Services in the Department of Defense,” December 26, 2002, because ESGR did
           not require that their 4,500 volunteers sign the requisite volunteer form,
           DD Form 2793, “Volunteer Agreement for Appropriated Fund Activities or
           Nonappropriated Fund Instrumentalities,” February 2002. By signing the form,
           individuals agreed to volunteer service and acknowledge that they were not
           employed by the U.S. Government. The volunteer agreement states that
           volunteers are not entitled to salary or benefits and agree to follow applicable
           laws, regulations, rules, and procedures. Further, the DD Form 2793 must be
           completed before a volunteer is allowed to provide volunteer services. As a
           result, ESGR may place the Government at a higher risk of unintended liability.

           When the audit team notified an ESGR headquarters official about the
           requirement to sign volunteer agreements, the official stated that ESGR was
           taking corrective action to incorporate ESGR as one of the accepted volunteer
           programs under section E3.2 of DoD Instruction 1100.21. In addition, ESGR
5
    RDDs are ESGR headquarters officials responsible for supporting ESGR committee operations.



                                                    7
management established a target completion date of October 2005 for obtaining a
signed volunteer agreement form from each volunteer.

Regional Deputy Directors. According to an ESGR official, the RDD program
was established in 2002. However, ESGR did not develop job descriptions for the
five RDDs who act as the headquarters single point of contact in support of ESGR
committee operations in their assigned region. RDDs serve ESGR committees
by:

       •   facilitating training, communications, and sharing best practices within
           their region;

       •   assisting with developing and executing annual budgets;

       •   coordinating mobilization and demobilization information and
           activities; and

       •   helping with planning and logistical support for committee activities.

ESGR placed little emphasis on establishing procedures for the functions and
activities of the RDDs and often relied on informal procedures. As a result, the
RDDs performed their duties based on personal interpretation and information
obtained from their predecessor. ESGR should clearly establish and define the
responsibilities of the RDDs to ensure the RDDs’ effectiveness in providing
support to ESGR volunteers.

        Job Description. The 2003 ESGR Employer Support Program Guide
outlines the basic role of the RDDs in support of ESGR committee operations.
The RDDs are unique in that no specific military occupation specialty codes are
designated for their positions at ESGR. For example, one RDD prepared, for his
own personal information, an informal list of responsibilities as an RDD. The list
included areas of support for ESGR committees such as providing management
guidance and oversight; training, budgetary, and logistics support; attending state
committee events; and coordinating employer orientation visits. In April 2005, an
ESGR official stated that RDD duties had evolved during the last 9 months and
that ESGR planned to codify the job descriptions.

Contract Specialist. ESGR did not effectively manage their contract specialist
position. That condition occurred because ESGR management did not hold the
contract specialist accountable for functions listed in the position description.
The position description states that the contract specialist serves as the
procurement manager, contract action officer, and the contracting officer’s
representative (COR) for ESGR headquarters with the responsibility of
administering contracting actions, including:

       •   preparing statements of work,

       •   articulating requirements for desired products or services,

       •   providing/developing justification for other than full and open
           competition,


                                     8
       •   establishing an acquisition plan, and

       •   conducting price analyses.

ESGR headquarters was unnecessarily duplicating effort and expending resources
by relying on other ESGR officials to perform COR duties. Also, ESGR hired a
contractor to execute precontract award phase responsibilities for the next ESGR
fulfillment contract, even though they had a contract specialist available to
perform those same functions. ESGR needs to determine whether it is more cost
effective to retain the contract specialist or the contractor, who are both fulfilling
the same requirements, and retain only the most cost-effective individual.

Travel and Expense Accountability
Effective control activities for travel and expense accountability include proper
execution of transactions and events, accurate and timely recording of
transactions and events, maintaining access restrictions to and accountability for
resources and records, and appropriate documentation of transactions and internal
control.

Travel Reimbursement. Before FY 2005, ESGR did not have procedures for
submitting, reviewing, and approving reimbursement of expenses ESGR
volunteers and employees incurred for official travel. As a result, headquarters
personnel primarily relied on informal, often unwritten, procedures, based on
their experience, to process and approve travel vouchers.

        Travel Reimbursement Process. ESGR Instruction 5000.6, “ESGR
Finance SOP [Standard Operating Procedures] for State Support” (Finance SOP),
September 30, 2004, establishes detailed policies and procedures to control the
use of appropriated funds and ensure that rules and regulations are followed in the
expenditure of funds in support of the ESGR mission. Specifically, the Finance
SOP delegates the authority to approve temporary duty travel, prescribes the
procedures for the supervisory review of travel vouchers, and establishes
procedures on temporary duty travel to include the preparation of travel orders
and travel vouchers. However, before FY 2005, no formal guidance was in place
governing submission and approval of travel vouchers. ESGR Operational
Guidelines issued in 1997 and 2000, and the ESGR Employer Support Program
Guide issued in 2003, established minimal guidelines on travel vouchers for
ESGR committee members. However, that guidance was not adequately detailed
regarding ESGR headquarters processes and procedures for reviewing and
approving travel vouchers.

         Audit Results. We reviewed a judgmentally selected sample of
100 travel vouchers: 50 from FY 2003 and 50 from FY 2004. For the FY 2003
sample, we reviewed 40 vouchers. The remaining 10 vouchers were for cancelled
trips or could not be located. For the FY 2004 sample, we reviewed 38 vouchers.
Of the remaining 12 vouchers, 6 were for cancelled trips and 6 vouchers could not
be located. We examined vouchers to determine whether they were signed and
approved, filled out correctly, and included required supporting documentation.



                                      9
Of the 78 vouchers we reviewed, several vouchers contained errors regarding
lodging expenses. Specifically, the FY 2003 sample contained seven vouchers
that did not correctly calculate hotel tax, four vouchers that did not fully support
lodging costs, and one that incorrectly placed lodging costs in the reimbursable
expense column. The FY 2004 sample contained four vouchers for which lodging
costs were not fully supported by receipts, one that incorrectly included the cost
of movies, and one that reported lodging costs in the wrong box on the form. In
addition, three vouchers incorrectly included hotel taxes in their lodging cost and
two vouchers did not calculate hotel taxes correctly. Although the errors and
inconsistencies were of a small dollar value and were not material in nature, they
demonstrate the need to strengthen internal controls of the approval of travel
vouchers.

Expense Reimbursement. Before FY 2005, ESGR did not have adequate
written procedures for submitting, reviewing, and approving reimbursement for
personal expenses that ESGR volunteers and employees incurred in support of
ESGR activities. In addition, ESGR did not have procedures to properly account
for ESGR property assets retained to support ESGR committee activities and
reimbursed by way of SF 1034, “Public Voucher for Purchases and Services other
than Personal,” October 1997. ESGR officials stated that headquarters personnel
primarily relied on informal, often unwritten, procedures that were based on
personal experience to process and approve SF 1034 vouchers.

        Expense Reimbursement Process. The ESGR Finance SOP established
formal policies and procedures for reimbursing ESGR committee members for
personal expenses using the SF 1034 voucher. Before FY 2005, there was no
guidance to govern submission and approval of SF 1034 vouchers. ESGR
Operational Guidelines and the ESGR Employer Support Program Guide
established minimal guidelines on SF 1034 vouchers for ESGR committee
members. However, this guidance did not provide adequate detail regarding
allowable expenses or how to properly complete the form. The guidance also did
not document ESGR headquarters processes and procedures for reviewing and
approving SF 1034 vouchers.

       Audit Results. We reviewed a judgmentally selected sample of 80 ESGR
SF 1034 vouchers: 40 from FY 2003 and 40 from FY 2004. We reviewed
vouchers for proper approval, supporting documentation, and reasonableness of
expenses claimed. The SF 1034 vouchers reviewed generally were completed,
approved, and properly supported. However, property accountability procedures
were identified during this audit as an area of concern where stronger internal
controls are needed.

For example, during FY 2003, ESGR employees and committee members
purchased and were reimbursed for property such as digital cameras and
projectors intended for long-term ESGR committee use. However, ESGR had no
property accountability records to show how many assets ESGR volunteers
acquired. To maintain proper accountability for ESGR assets used by volunteers,
ESGR should develop and implement management controls for property
inventory that clearly demonstrates accountability for these assets.




                                    10
            Management Actions. In early 2005, ESGR took several steps designed
    to strengthen controls over the SF 1034 reimbursement process. Specifically,
    ESGR issued two policy memorandums to establish guidance for submitting
    SF 1034 vouchers and established new procedures to strengthen management
    controls over property accountability.

    ESGR Operational Memorandum 2005-01, “Use of Standard Form 1034,”
    February 3, 2005, contains a list of general guidelines for the use of SF 1034
    vouchers. The list includes examples of items authorized for reimbursement,
    items authorized that require prior ESGR approval, and items that are not
    authorized. In addition, ESGR Operational Memorandum 2005-02, “Budget
    Support to State Committees,” March 15, 2005, states that in the future, ESGR
    “hopes that volunteers will not be required to make out-of-pocket expenses to the
    extent that is currently occurring.” The memorandum also states that the SF 1034
    is the only method to reimburse volunteers, but that the approach is cumbersome,
    lengthy, and incurs substantial processing charges. An ESGR official stated the
    policy revisions to the two operational memorandums were part of the ESGR goal
    to reduce the use of SF 1034 vouchers and encourage the use of other methods,
    such as military interdepartmental purchase requests or contracts to pay for ESGR
    events. An ESGR official noted that prior to that effort, property accountability
    procedures were left to the discretion of each ESGR committee and were not
    consistent from one committee to another.

    Acquisition and Contracting
    Internal control standards ensure compliance with applicable laws and regulations
    (such as the Federal Acquisition Regulation [FAR]) and the proper execution and
    recording of transactions and events. We evaluated the basis for sole-source
    awards and ESGR oversight procedures for ensuring compliance with the
    statements of work. Finding B of this report discusses ESGR procedures
    regarding acquisition and contracting.


ASD(RA) Oversight
    The ASD(RA) is responsible for exercising authority, direction, and control over
    ESGR. In May 2004, the ASD(RA) rescinded the authority of ESGR to commit
    or obligate Federal funds or enter into any contractual agreement. When ESGR
    has those authorities reinstated, ASD(RA) should establish a program to oversee
    and monitor ESGR operations.


Conclusion
    ESGR did not adequately administer and manage aspects of its operations,
    including control environment and personnel management, travel and expense
    accountability, and acquisition and contracting. Although management initiated
    recent actions to improve management accountability and control, effectiveness


                                       11
    of those actions is uncertain. A management and organizational culture that used
    personal experience in place of standardized procedures and was lax in applying
    and adhering to rules must be changed. Unless a strong and effective program for
    management accountability and control is fully developed and maintained, ESGR
    will remain at significant risk for fraud, waste, and abuse.


Management Comments on the Finding and Audit Response
    Assistant Secretary of Defense for Reserve Affairs and the Executive
    Director, National Committee for Employer Support of the Guard and
    Reserve. ASD(RA) and the Executive Director, National Committee for ESGR
    responded jointly concurring with the report and described a series of ongoing or
    completed actions that would implement the audit recommendations. The
    ASD(RA) also stated that his office is developing and implementing procedures
    to ensure sufficient oversight of ESGR activities. Additionally, the ASD(RA)
    stated that ESGR will develop a management control program to comply with
    DoD guidance; develop standard operating procedures; establish organizational
    structures, reporting relationships, and position descriptions; and implement a
    series of other controls to enable ESGR to operate more efficiently.

    Audit Response. We commend the Assistant Secretary and the Executive
    Director for the actions initiated. We appreciate the assistance they and their
    staffs provided during the audit.


Recommendations
    A.1. We recommend that the Assistant Secretary of Defense for Reserve
    Affairs develop and implement procedures for providing oversight, direction,
    and control of National Committee for Employer Support of the Guard and
    Reserve operations, as established by DoD Directive 1250.1.

    A.2. We recommend that the Executive Director, National Committee for
    Employer Support of the Guard and Reserve:

          a. Implement a Management Control Program that fully complies
    with DoD Directive 5010.38.

           b. Finalize an organizational chart that clearly defines organizational
    structure and reporting relationships.

           c. Develop headquarters-level standard operating procedures. At a
    minimum, the standard operating procedures should incorporate all
    operating functions, policies, procedures, controls, and organizational
    relationships.

           d. Require each volunteer to sign, and periodically update, a
    volunteer agreement form in accordance with DoD Instruction 1100.21.


                                         12
       e. Develop and issue a position description for the Regional Deputy
Directors describing their roles and responsibilities.

        f. Perform an analysis to determine whether it is more cost effective
to retain the contract specialist or the contractor, who are both fulfilling the
same requirements, and retain only the most cost-effective personnel.

      g. Establish controls to ensure that all travel vouchers are prepared
and approved in accordance with the Joint Travel Regulations and the Joint
Federal Travel Regulations.

       h. Develop a property management program that requires specific
accountability for nonexpendable items, pilferable items, information
technology equipment, and other items as identified by the Employer
Support of the Guard and Reserve.

      i. Develop and implement procedures that describe the roles and
responsibilities of all personnel involved in the processing of travel and
personal expense reimbursement vouchers.




                                   13
           B. Award and Administration of the
              Fulfillment and Personnel Services
              Contracts
                   Contracting procedures in support of ESGR operations were not
                   followed. Specifically, a sole-source justification was not properly
                   certified, out-of-scope activity was permitted, inadequate
                   surveillance was conducted, and ordering and receiving processes
                   were ineffective. Those conditions occurred because FAR
                   requirements were not followed and existing management controls
                   were ineffective. As a result, ESGR cannot be assured that it was
                   provided the best contracting solutions; it paid fair and reasonable
                   prices for the goods purchased; the contractor performed the
                   requirements of the contract; and it received the goods purchased.


Contracts Reviewed

    Contracting Support
    For the contracts discussed in this finding, ESGR received contracting support
    from the DCC-W, the Department of the Interior, and the Department of the
    Treasury. DCC-W, a field operating activity within the Office of the
    Administrative Assistant to the Secretary of the Army, is responsible for
    executing the DoD Executive Agent mission of providing administrative
    contracting support to all DoD activities within the National Capital Region.

    Fulfillment Contracts
    We reviewed three contracts that the DCC-W awarded on February 5, 2002,
    June 1, 2003, and January 31, 2005, to provide comprehensive fulfillment and
    fully integrated advertising and marketing services in support of ESGR. The cost
    for the three contracts totaled approximately $5.3 million. Table 1 lists the three
    fulfillment contracts.




                                        14
                                           Table 1. Fulfillment Contracts
                                          Contracting
                  Contract Number           Office        Contractor     Award Date(s)      Award Amount
                 GS--07F-0386K
             1   DASW01-02-F-0522           DCC-W            Odyssey         Feb. 5, 2002         $220,000
                                                                             Aug. 2002 -
                  Modifications                                                July 2003        (+) 907,500
                                                                                                 $1,127,500
                 GS-07F-0493M
             2   DASW01-03-F-0781           DCC-W            Odyssey         June 1, 2003        $1,157,782
                                                                              Aug. 2003 -
                  Modifications                                                 Jan. 2005     (+) 1,747,728
                                                                                                 $2,905,510
             3   W74V8H-05-P-0252           DCC-W            Odyssey        Jan. 31, 2005        $1,222,439
                 Total                                                                           $5,255,449



           DCC-W awarded the three contracts on a sole-source basis6 to the Odyssey
           Imaging Group, Incorporated (Odyssey), of Alpharetta, Georgia. DCC-W used
           the General Services Administration Federal Supply Schedule to award the
           firm-fixed-price contracts with appropriated funds from the Government.

           Personnel Services Contracts
           We also reviewed four personnel services contracts7 in support of ESGR. The
           contracts provided personnel support for functions such as strategic planning,
           public relations, ombudsman services, administrative support, and other
           mission-essential areas. Table 2 lists the four personnel services contracts.




6
    See the Basis for Sole-Source Awards section of this Finding for a discussion on the justifications cited as
    the basis for the sole-source awards.
7
    For the purposes of this report, “personnel services contracts” provided services that were identified by
    ESGR to supplement their existing staff.



                                                        15
                               Table 2. Personnel Services Contracts
                                   Contracting                                          Award
        Contract Number              Office           Contractor      Award Date(s)     Amount
 1   DASW01-02-P-0488               DCC-W             AM and PM        Mar. 19, 2002     $16,800
      Modification                                                      Apr. 1, 2002      40,000
                                                                                         $56,800
 2   DASW01-02-P-0738                 DCC-W           AM and PM         July 11, 2002     $77,967
      Modifications                                                    July-Oct. 2002     100,000
                                                                                         $177,967


 3   FedSource                      Department.      Kelly Services
       Interagency Agreement          of the                             Jan. 1, 2002   $1,922,350
       Interagency Agreement         Treasury                          Sept. 26, 2003    1,288,586
                                                                                        $3,210,936

                                    Department           TKC
 4   NBCHD030029                   of the Interior   Communications

      Task Order D0300290001                                             Mar. 1, 2004    $425,820

      Task Order D0300290003                                             May 1, 2004     1,223,762
       Modifications                                                  July-Nov. 2004        87,144

      Task Order D0300290031                                            Dec. 16, 2004    1,295,482
       Modifications                                                       Feb. 2005             0
                                                                                        $3,032,208
     Total                                                                              $6,477,911



AM and PM, Incorporated. In support of ESGR, DCC-W awarded two
consecutive contracts to AM and PM, Incorporated (AM and PM), for preparation
of a business process analysis. DCC-W modified the first contract by extending
the contract’s performance period to allow AM and PM to implement
recommendations resulting from the business process analysis. After completion
of that contract, DCC-W then awarded AM and PM a sole-source contract to
continue implementation of recommendations resulting from the business process
analysis. DCC-W also modified the second contract to extend the period of
performance and increase the overall contract value.

FedSource and Kelly Services. ESGR signed two Interagency Agreements with
FedSource, a franchise of the Department of the Treasury, for Project Task
Support Services. FedSource then subcontracted all work for ESGR to Kelly
Services. The Project and Task Support Services were strictly for labor hours.
FedSource awarded 36 task orders for FY 2003, and 31 task orders for FY 2004
against the contract for services in functional areas such as finance, information
technology, and general administrative support. As of April 2004, FedSource
ended current and future task order support because of ESGR noncompliance with
FedSource’s task order procedures.




                                              16
           TKC Communications. In February 2004, the Department of Interior awarded
           an indefinite-quantity, indefinite-delivery, time and materials contract to TKC
           Communications (TKCC), an 8(a) Alaskan Native Corporation8. The purpose of
           the contract was to support initiatives for computer, network,
           telecommunications, management, construction, and data and communications
           infrastructure. All supplies and services were obtained through individual task
           orders. ESGR placed three task orders against the TKCC contract for project task
           support services. In June 2004, the ASD(RA) requested removal of the inherently
           governmental tasks and the related or supporting contractors, because
                    the Statement of Work (SOW) tasks the contractor to perform
                    inherently governmental functions (which should never have been
                    included in the contract), and second, specific individuals working as
                    contractors for TKCC have acted inappropriately.

           In July 2004, ESGR and the Department of Interior modified the second task
           order to remove the inherently governmental tasks as well as the two contractors
           who performed the tasks, which decreased the value of the task order.


Criteria
           The Federal Acquisition Regulation (FAR) and the Defense FAR Supplement are
           the primary criteria governing contracting for goods and services. The
           regulations require orderly processes that include an analysis of the requirements
           and various types of contracts to use, determinations as to whether fair and
           reasonable prices are paid, and oversight of contractor performance and billing
           after the contract award.

           The FAR describes measures that contracting officers must follow to award
           contracts and requires that contracting officers must not award contracts unless all
           of the regulations have been met and that purchases are made at fair and
           reasonable prices. Additionally, DoD Regulation 7000.14-R, “Financial
           Management Regulation,” requires that DoD Components establish appropriate
           internal controls that will ensure the financial data provided is accurate, complete,
           and supportable, and requires sufficient documentation be maintained to support
           the acceptance of goods from a contractor.


Basis for Sole-Source Awards

           Fulfillment Contracts
           DCC-W awarded a sole-source fulfillment contract to Odyssey in 2005 valued at
           $1.2 million to support ESGR operations. That contract included a sole-source

8
    An 8(a) Alaskan Native Corporation is eligible to receive sole-source contracts exempt from threshold
    limitations.



                                                      17
justification that was not properly certified. FAR Part 8, which governs
acquisition of supplies and services from or through Government supply sources,
contains language in Subpart 8.405-6 stating that an ordering activity using
Federal Supplies Schedules shall prepare a sole-source justification using
Subpart 6.303-2. DCC-W did not comply with FAR Subpart 6.303-2(a)(12),
which requires that the contracting officer certify that the justification is accurate
and complete to the best of their knowledge and belief. In 2004, DCC-W
changed their procedures to require that the Director of Contracting sign
sole-source justifications. However, DCC-W awarded the 2005 fulfillment
contract as a sole-source contract without the proper certification from the
Director of Contracting.

In addition, the sole-source justification for the 2005 contract lists the Odyssey
database as one reason for issuing a sole-source contract. Under the terms of the
contract, ESGR will pay $125,000 to Odyssey for data developed under the
fulfillment contracts; however, Odyssey provided that data in its invoice to ESGR
on a monthly basis since the award of the 2003 fulfillment contract. Because
ESGR did not keep the data Odyssey provided each month, ESGR must pay the
contractor to recreate the data.

While reviewing the contract files, we became aware of two additional concerns
that related to the contracting documents that supported the fulfillment contacts
awarded in 2002 and 2003. One concern was the approval of the 2005
sole-source justification without addressing an issue identified before the award
of the 2003 fulfillment contract. In 2002 and 2003, DCC-W stressed that ESGR
should solicit the items by way of full and open competition in the future.
Although ESGR agreed that future fulfillment contracts should be awarded
through full and open competition, the 2005 fulfillment contract was awarded as a
sole-source contract. The other concern pertained to the FAR criteria in effect at
the time of the award of the 2002 fulfillment contract, which stated that orders
placed against Federal Supply Schedules are considered issued using full and
open competition, thus eliminating the need for a sole-source justification. The
FAR requires that officials consider available information about the supplies or
services offered under Federal Supply Schedule contracts by using the GSA
Advantage! on-line shopping service or by reviewing the catalogs or pricelists of
at least three schedule contractors.

Although not required by the FAR, DCC-W maintained a sole-source justification
for the 2002 fulfillment contract prepared by an ESGR official in the contracting
files. Before May 11, 2005, on two separate occasions, DCC-W officials
provided a copy of the 2002 sole-source justification. However, no evidence
existed that the contracting officer reviewed and approved the document. On
May 12, 2005, DCC-W provided a third copy of the 2002 sole-source
justification; that copy was signed by the contracting officer and dated
January 30, 2002 (the same date of the contract award). When we brought the
inconsistency to the attention of DCC-W officials, they admitted that the
contracting officer had actually signed and dated the document on May 11, 2005.
DCC-W could not explain why the contracting officer backdated the sole-source
justification, prepared by ESGR, and included it in the official contract file when
it was not required by the FAR when the contract was awarded.



                                      18
Out-of-Scope Activity

           Fulfillment Contracts
           A considerable amount of work was accomplished outside the scope of the 2005
           fulfillment contract. Specifically, ESGR volunteers9 did not state in their orders
           how the funds were used; ESGR did not provide volunteers guidance so they
           could explain how the funds were used; and ESGR made changes to the technical
           exhibit under which ESGR and Odyssey operated as of April 2005 without
           modifying the contract.

           Contract Scope. DCC-W awarded the 2005 fulfillment contract to Odyssey to:
                   Provide comprehensive fulfillment and fully integrated advertising and
                   marketing services to support the ESGR and for the ESGR national
                   organization managed through the ESGR Headquarters. The period of
                   performance is 8 months. The services are “similar in nature” to those
                   found in many GSA schedule contracts . . . These items are purely
                   commercial in nature, as are the services being provided, and can
                   therefore be obtained using Simplified Acquisition Procedures. Refer
                   to Technical Exhibit-1 for fulfillment support items.

           Official Representation Funds. Section 2241(c), title 10, United States Code,
           enacted by Section 518 of the National Defense Authorization Act for FY 2004
           (Public Law 108-136, November 24, 2003) authorized ESGR to use appropriated
           operation and maintenance funds for official receptions, representation, and
           advertising activities for ESGR to further employer commitments to the
           employees who are members of a reserve component. The Under Secretary of
           Defense for Personnel and Readiness delegated authority to regulate the
           expenditures of operation and maintenance funds by ESGR for advertising
           activities and materials to ASD(RA). DoD Directive 7250.13, “Official
           Representation Funds (ORF),” February 17, 2004, states that ESGR expenditures
           of appropriated funds for official reception and representation activities shall be
           made in a manner consistent with the guidance established in the Directive.

           Use of Funds. ESGR did not provide procedures or guidance to their volunteers
           to indicate in their orders how funds were used (as official representational funds,
           operation and maintenance, or advertising and marketing). This lack of guidance
           prevented volunteers from being able to code their orders in accordance with the
           terms of the contract. Instead, ESGR required that Odyssey enter the codes for
           each order. Both of those methods violated the terms of the contract. In
           March 2005, ESGR changed their process again and required that an ESGR
           headquarters official assign the fund codes; however, ESGR did not modify the
           contract to reflect that change.


9
    The COR was responsible for providing written authorization for ESGR staff who could use the on-line
    store to place orders, and Odyssey was responsible for ensuring that only authorized individuals
    submitted orders.



                                                     19
Technical Exhibit 1 - Listing of Items. The listing of items in the 2005
fulfillment contract was not an accurate representation of the items ESGR wanted
its committees to purchase. In October 2004, the ESGR contract specialist
obtained a listing from Odyssey of the items sold to ESGR customers since 2002.
The contact specialist incorporated that list into the Technical Exhibit section of
the 2005 contract, which contained 339 line items. However, according to
Odyssey, approximately 60 percent of those items would not be purchased by
ESGR under the 2005 contract.

After the award of the January 2005 contract, a senior ESGR official created a
revised Technical Exhibit, “2005 ESGR Advertising and Official Representation
Fund Items,” to reflect actual items ESGR would purchase from Odyssey. ESGR
revised the list to comply with the Under Secretary of Defense for Personnel and
Readiness requirement to properly account for all funds. The revised Technical
Exhibit contained 276 line items and was approved by ASD(RA) on March 4,
2005. ESGR required that Odyssey use the revised Technical Exhibit when they
fill orders from ESGR committees. However, the contract was not modified to
incorporate the revised Technical Exhibit; therefore, ESGR violated the terms of
the contract. Additionally, ESGR and Odyssey both acknowledged that the
March 2005 list of items did not accurately reflect the items ESGR intended for
its committees to purchase. In April 2005, the ESGR Director of Current
Operations, who also serves as the COR, met with Odyssey to develop yet another
list of items for the Technical Exhibit.

Personnel Services Contracts
ESGR allowed considerable work to be performed that was outside the scope of
both the FedSource and TKCC contracts.

FedSource. FedSource officials stated that the ESGR task orders with Kelly
Services were for labor hours only. However, FedSource rejected approximately
$230,000 worth of invoices, dated from October 2003 through February 2004,
from Kelly Services because of inappropriate expenses from contract employees.
Inappropriate expenses included unapproved travel to Kuwait and Iraq; a lease for
office space; and the purchase of inappropriate items such as uniforms, towels,
vacuum cleaners, hardware, shelving, meals, and airfare for multiple people.

FedSource met with ESGR on several occasions from May 2003 through
February 2004 to discuss inappropriate charges against the task orders. After a
November 2003 meeting to obtain a better understanding of the ESGR mission,
FedSource told ESGR they could convert some of the task orders to time and
materials. FedSource requested a list of allowable expenses from ESGR;
however, ESGR never provided the list. In February 2004, FedSource terminated
all task orders, effective April 2004, because ESGR did not comply with
FedSource’s task order procedures. As of August 2005, FedSource had not
resolved $161,562 of disputed charges with Kelly Services.

TKCC. For the TKCC task orders, ESGR allowed contractors to perform
out-of-scope activities and to purchase items that appear to be outside the scope
of their task orders. The following examples describe those conditions.


                                    20
       Out-of-Scope Activities. In April 2004, the Strategic Planner/Technical
Director submitted an invoice to TKCC for approximately $2,100 worth of
expenses. Those expenses were incurred by the Contracting and Acquisition
Specialist, not the Strategic Planner/Technical Director. Additionally,
approximately $1,400 of the $2,100 of expenses were incurred during January and
February of 2004; however, the effective date of the Contracting and Acquisition
Specialist’s task order was March 1, 2004. Therefore, the Strategic
Planner/Technical Director was reimbursed for expenses incurred by the
Contracting and Acquisition Specialist at a time when the Contracting and
Acquisition Specialist was not part of the task order.

        According to the ESGR statements of work and the TKCC proposals, all
staff positions were to be located at ESGR headquarters in Arlington, Virginia,
except for the California-based Information Technology and Administrative
Services position (California-based contractor). TKCC invoices show that several
positions were not based at ESGR headquarters. According to ESGR, the Public
Relations Specialist, Volunteer Recruitment and Retention Service, FY 2004
National Employer Outreach Program Coordinator, Community Relations
Specialist, Strategic Planner/Technical Director Services, and Contracting and
Acquisition Specialist Services positions were each based at their respective
residences instead of ESGR headquarters, as required.

        The California-based contractor was responsible for full-time technical
and administrative services that support the ESGR California-based activities as
well as its National Chairman. In a September 2004 invoice, the California-based
contractor claimed approximately $4,500 for a 3-week trip in August 2004 to
Washington, D.C. According to the invoice, the purpose of the trip was to
prepare for the Secretary of Defense Employer Support Freedom Awards. ESGR
could not explain how the trip related to the responsibilities of the position or why
that work was not performed by a member of the ESGR headquarters staff or the
ESGR Public Relations Specialist, who is responsible for coordinating activities
for the ESGR annual presentation of the Secretary of Defense Employer Support
Freedom Awards. In September 2004, the California-based contractor returned to
Washington, D.C. to attend the Secretary of Defense Employer Support Freedom
Awards at a cost of more than $3,000. ESGR could not explain why attending the
event was necessary for the California-based contractor. In May 2005, the COR
notified the California-based contractor that travel costs would no longer be
approved by ESGR because those costs were outside the scope of assigned tasks.

        Another example of out-of-scope activity regarding the California-based
contractor was that the task order did not contain specific duties to perform. The
task orders stated that the position was for administrative services supporting the
California-based National Chairman of ESGR. The task order also stated that the
office space for the contractor shall be co-located with the person supported. The
National Chairman stated that he refused to take the position without someone to
perform administrative tasks. ESGR needs to clearly define specific duties for the
California-based contractor to alleviate the ambiguity of her position description.

       Out-of-Scope Items Purchased. ESGR allowed the Strategic
Planner/Technical Director to purchase items that appeared to be outside the
scope of his position description. According to the contractor’s proposal, the


                                     21
     Strategic Planner/Technical Director was responsible for drafting and updating a
     strategic plan as well as other duties including the management and
     administration of information technology projects. ESGR approved an
     April 2004 invoice for $3,000 for the purchase of cables, software, hubs, and
     office supplies. According to an ESGR official, ESGR requested approval from
     ASD(RA) for the information technology supplies, but was denied. As a result,
     the Strategic Planner/Technical Director personally purchased the information
     technology supplies and was subsequently reimbursed for them by ESGR.
     Additionally, in an April 2004 invoice, the Strategic Planner/Technical Director
     claimed expenses of approximately $5,000. However, those expenses were
     incurred in January and February 2004 prior to the award of the TKCC task order
     in March 2004. Also, in a January 2005 invoice, the Strategic Planner/Technical
     Director received reimbursement for a June 2003 function at the Army Navy
     Club, Washington, D.C., for “room rental, a la carte catering, non-alcoholic bar
     service, and gratuity” at a cost of approximately $3,000.

            ESGR also allowed the Deputy Director for the Southwest Area to
     purchase items that appeared to be outside the scope of his tasks. His position
     description states that he is responsible for focusing on the strategic mission of
     the ESGR California committee. However, in a March 2004 invoice, the Deputy
     Director purchased computer dial-in parts, Internet access, and facsimile machine
     parts while in a travel status to Jefferson City, Missouri. The purchase of those
     materials, as well as the trip itself, does not directly relate to that position’s
     responsibilities as defined in the task order.

             Those two examples occurred because ESGR did not develop a list of
     allowable costs when preparing their statements of work. Specifically, the
     statements of work did not identify allowable material costs or dollar limitations
     for those costs and contained a position description that was vague. These
     shortfalls permitted contractors to purchase items that appear to be outside the
     scope of their task orders.


Contract Surveillance

     Fulfillment Contracts
     The surveillance that ESGR and DCC-W conducted on the three fulfillment
     contracts was not adequate. In addition, individuals assigned to perform
     surveillance did not have clearly established roles and responsibilities, were not
     trained before being assigned surveillance responsibilities, and could not provide
     any assurance that the Government received what it paid for. Those conditions
     occurred because ESGR and DCC-W did not develop and implement a
     surveillance plan for the fulfillment contracts. As a result, ESGR and DCC-W did
     not properly administer the fulfillment contracts, could not be certain that the
     contractor was performing in accordance with contract requirements, and could
     not determine whether funds were properly used and accounted for.




                                         22
Surveillance and documentation of surveillance activities are required by both the
FAR and the Defense FAR Supplement. Documentation is necessary to help
ensure accountability over the surveillance process. Surveillance involves
Government oversight of contractors with the purpose of ensuring that the
contractor performs the requirements of the contract and that the Government
receives the goods or services as intended. FAR Subpart 46.401 states that
quality assurance surveillance plans should be prepared in conjunction with the
preparation of the statement of work and that plans should specify all the work
requiring surveillance as well as the method of surveillance. The contracting
officer is responsible for assigning surveillance personnel and ensuring that
surveillance is conducted on the contract.

According to the Defense FAR Supplement Subpart 201.602-2, contracting
officers may designate, in writing, qualified personnel as their authorized
representatives to assist in the technical monitoring or administration of a contract
(a COR). The COR is required to maintain adequate records that sufficiently
describe the performance of COR duties.

Surveillance Assignment, Training, and Documentation. DCC-W and ESGR
officials could not provide documentation, such as a surveillance plan and
specific roles and responsibilities, describing how the COR conducted
surveillance. Also, the COR did not receive training on surveillance
responsibilities. During the 2003 fulfillment contract, the COR left the
organization in July 2004. According to ESGR, another official assumed
surveillance responsibilities when the initial COR left; however, the second
official left the organization in December 2004. Therefore, a third ESGR official
assumed surveillance responsibilities and began performing those functions in
December 2004. In both cases, no official designation of authority was
completed and the contracts were not modified to reflect this change in personnel.

For the fulfillment contract awarded in January 2005, a COR was designated in
the contract. However, DCC-W did not prepare the COR appointment letter until
April 2005. The appointment letter described the roles and responsibilities of the
COR. The COR received training in November 2004 and served as acting COR
from the contract award date until the official appointment date.

Personnel Services Contracts
ESGR performed inadequate surveillance on the three TKCC task orders.
Individuals assigned to perform surveillance did not develop a quality assurance
surveillance plan, were not trained prior to being assigned surveillance
responsibilities, and failed to provide reasonable assurance that the Government
received what it paid for. As a result, ESGR was not properly administering the
TKCC task orders and could not be certain that the contractor performed in
accordance with contract requirements.

For each of the task orders, the Department of the Interior contracting officer
designated an ESGR official as the COR and clearly defined the roles and
responsibilities associated with the position, including monitoring and verifying
the contractor’s performance and maintaining adequate records that sufficiently


                                     23
describe the performance of those duties. However, the surveillance the CORs
conducted was inadequate.

Proper surveillance of the contractor’s performance under the task orders was
especially critical because the work was performed on a time and materials basis,
where services are billed on the basis of direct labor hours at specified fixed
hourly rates. According to the FAR Subpart 16.601, time and materials contracts
require appropriate Government oversight because incentives do not exist for the
contractor to control costs or to be efficient.

An ESGR official stated that he was unofficially performing the COR duties since
July 2004, when the previous COR left ESGR. However, that ESGR official did
not receive training to perform COR duties until February 2005. The COR did
not have a surveillance plan, but stated that he conducted surveillance by
reviewing contractor invoices and supporting documentation and by relying on
department heads to determine if work was being completed.

Based on the review of the TKCC invoices and supporting documentation related
to the ESGR task orders, ESGR approved expenses that were excessive,
improper, and unsupported. For example, from May through October 2004,
ESGR reimbursed a contract employee for per diem charges of approximately
$27,000. According to the task order, all services and positions were based at
ESGR headquarters in Arlington, Virginia. However, the contractor was
reimbursed for temporary duty costs (airfare, lodging, and meals) incurred
traveling to and from work at headquarters. Additionally, ESGR approved:

       •   invoices with missing or inadequate receipts totaling approximately
           $2,300;

       •   oversized vehicles, such as a 5-day rental for a Jeep Cherokee for $650
           and a 4-day rental for a Chevy Suburban for $885;

       •   airfare for travel by a contractor’s family member;

       •   first class airfare to multiple locations;

       •   monthly cellular phone charges up to $340; and

       •   taxi cab expenses of $134 despite the reimbursement for a rental car.

ESGR officials also approved other minimal charges purchased by contracted
employees during temporary duty status for hotel videos, gift shop purchases,
hotel pet charges, banner signs, overstated travel mileage, incorrect meals and
incidental expenses, and various types of training books. While those other
charges were individually low in dollar value, they were excessive, improper, and
unsupported. ESGR needs to perform better surveillance on the personnel
services contracts to ensure resources are not wasted in the future.




                                      24
Fulfillment Process
     ESGR did not provide effective administration and oversight of the contract
     fulfillment process. ESGR had limited, if any, visibility of the items the
     volunteers ordered. Specifically, volunteers were allowed to order items, and
     thereby commit and obligate Government funds, without Government approval.
     ESGR officials approved invoices for payment without verifying whether the
     Government received the items. ESGR lacked effective procedures and controls
     over the fulfillment process, in part because ESGR felt controls would place a
     burden on volunteers. In addition, when we requested an explanation of the
     fulfillment process from ESGR, we were directed to ask the contractor.

     DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
     Volume 6A, Chapter 2, requires that DoD Components establish appropriate
     internal controls to ensure that data provided to Defense Finance and Accounting
     Services and recorded in the accounting system is accurate, complete, and
     supportable. The regulation also requires that audit trails are maintained in
     sufficient detail to permit tracing of transactions from their sources and to provide
     documentary support. In addition, the regulation states that the acceptance of
     contractor products should be documented by an inspection or receiving report.
     Further, Volume 10, Chapter 1 of the DoD Financial Management Regulation
     requires that a receiving report should be prepared at the time of delivery and
     forwarded to the designated agency office by the fifth working day after
     acceptance. The regulation states that a receiving report include: vendor name,
     contract number or other delivery authorization, item description, unit of measure,
     quantity received, date of receipt, date of acceptance, and name, title, telephone
     number, mailing address, and signature of the accepting or approving official.

     Ordering and Receiving Process. According to the 2005 fulfillment contract,
     ESGR was required to authorize in writing ESGR personnel who have permission
     to place orders. We requested the list from ESGR, but were directed to Odyssey
     to obtain the information. We visited Odyssey in February 2005 and obtained the
     list. According to Odyssey, the information was based on a list ESGR provided
     to them in July 2003. The list contained the names of 149 people and consisted of
     the chairs of ESGR committees, executive directors, and program support
     specialists.

     The list of 149 names did not contain any individuals from ESGR headquarters.
     According to an Odyssey official, Odyssey used the 2003 list, maintaining and
     updating as needed to fulfill orders. If someone not on the authorized list placed
     an order, Odyssey asked an authorized volunteer from the list for approval before
     processing.

     Odyssey handled everything from maintaining the list of authorized orderers to
     documenting and tracking all the items purchased by ESGR headquarters and its
     55 committees. ESGR did not have documentation on items purchased from
     Odyssey or information about whether the items ordered were received. An
     ESGR official stated that if a volunteer did not receive all of the items ordered,
     the volunteer would resolve any differences with Odyssey.



                                          25
Before March 2005, no Government official actually approved items ordered by
committee members, which resulted in volunteers committing and obligating
Government funds. ESGR changed their process after we brought that fact to
their attention. As of March 2005, an ESGR headquarters official approves each
order.

Invoice Validation Process. ESGR approved invoices for payment without
sufficient evidence that the Government received the items. ESGR officials
indicated that they decided whether items ordered from Odyssey were “received,
inspected, and accepted and conformed to the contract,” based on verbal
confirmation or e-mail. ESGR did not establish procedures for reconciling the
items purchased to the items that Odyssey invoiced. As a result, transactions
could not be traced and ESGR could not ensure that the invoices were correct.

After the end of each month, Odyssey sent an invoice and purchase reports
supporting the amount invoiced to the ESGR Finance Officer and COR. The
purchase reports showed Sales by Region, Sales by Item, and Sales by Customer,
as well as other categories. The COR forwarded the Sales by Region report,
which contained each purchase transaction made during the course of the
previous month by each of the 55 committees, to the RDDs by way of e-mail.
The COR instructed the RDDs to extract the purchase transactions their
respective committees made and verify whether the items were received.

After the COR receives e-mails from each RDD indicating that the committees
within their region received the items listed in the Sales by Region report, the
COR indicates that the items were received, inspected, and accepted and
conformed to the contract by checking those blocks on SF 1449,
“Solicitation/Contract/Order for Commercial Items,” October 1995. The COR
signs the form as the authorized Government official and forwards it to the ESGR
Finance Officer. The ESGR Finance Officer ensures that the amount on the
invoice matches the amount that the authorized Government official is approving
for payment. The ESGR Finance Officer then signs the forms as the certifying
officer, indicating that the invoice was correct and proper for payment. An
official in the Finance Office records the invoice amount in a spreadsheet, then
forwards the invoice to the Defense Finance and Accounting Service for payment.

The ESGR Finance Office maintained the fulfillment contract invoice file, which
consisted of copies of invoices and SF 1449s. However, the file did not contain
ordering or receiving reports to reconcile the contractors’ invoices. When we
asked ESGR for a list of items ordered to support the invoices being paid, we
were directed to Odyssey. Consequently, the COR could not ensure all the items
in the contractors’ invoices were ordered and received by ESGR committees.
Both the COR and the certifying officer stated that they believed that e-mail or
verbal confirmation from committee and contractor invoices were sufficient
support for invoice validation.




                                   26
Conclusion
    Contracting procedures in support of ESGR operations were not followed.
    Specifically, a sole-source justification was not properly certified, out-of-scope
    activity was permitted, inadequate surveillance was conducted, and ordering and
    receiving processes were ineffective. For the fulfillment contracts, ESGR could
    not be assured that it was provided the best contracting solution, paid fair and
    reasonable prices for goods purchased, or that the contractor delivered the goods.
    During the administration of the personnel services contracts, ESGR should have
    been more observant about the charges being approved. Recommendations to
    address the weaknesses associated with management controls were made in
    Finding A.


Recommendations, Management Comments and Audit
  Response
    B.1. We recommend that the Executive Director, National Committee for
    Employer Support of the Guard and Reserve:

           a. Develop a surveillance plan for current and future fulfillment and
    personnel services contracts. At a minimum the surveillance plans must
    specify all the work requiring surveillance and the method of surveillance.

          b. Account for all items ordered and received under the fulfillment
    contract with supporting documentation.

           c. Develop a list of tasks that clearly defines the responsibilities of the
    California-based Information Technology and Administrative Services
    position for inclusion in the current personnel services task order as well as
    future task orders or contracts.
           d. Develop standard operating procedures for the ordering and
    receiving processes associated with the fulfillment contract.

            e. Fulfill orders according to the listing of items in the
    2005 fulfillment contract or modify the contract to incorporate an updated
    listing of items.

           f. Ensure the contracting officer representatives for the fulfillment
    and personnel services contracts comply with roles and responsibilities
    defined in the contracting officer representative appointment letter.

            g. Develop a list of allowable “Other Direct Costs” as well as dollar
    limitations for those costs for inclusion in the current personnel services task
    order as well as future task orders or contracts.




                                        27
        h. Ensure that all personnel responsible for contract administration
are trained to perform their responsibilities associated with surveillance and
travel regulations.

Executive Director, National Committee for Employer Support of the Guard
and Reserve. The Executive Director concurred, stated that actions were
underway to implement the recommendations. The Executive Director stated
that, for example, contract surveillance plans are being implemented; controls
were initiated for accountability of items ordered and received under the
fulfillment contract; standard operating procedures for ordering and receiving
processes are being implemented; and training is being conducted for personnel
responsible for contract administration.

Audit Response. Management comments from the Executive Director were
responsive to the report recommendations. The actions that the Assistant
Secretary and Executive Director are implementing should strengthen the
management control environment of ESGR and enable it to operate more
efficiently and affectively.

B.2. We recommend that the Commander, Defense Contracting Command-
Washington:

        a. Ensure future Employer Support of the Guard and Reserve
fulfillment contracts are awarded in accordance with applicable Federal
Acquisition Regulations.

        b. Perform a review and initiate appropriate administrative action
for the contracting officers who willingly made improper interpretations of
and did not comply with the Federal Acquisition Regulation.

        c. Ensure that contracting officers comply with Defense Contracting
Command-Washington policies and procedures regarding sole-source
justifications.

Commander, Defense Contracting Command-Washington. The Commander,
DCC-W did not comment on Recommendation B.2. Therefore, we request that
the Commander, DCC-W provide comments on the final report.




                                  28
Appendix A. Scope and Methodology
   This audit was performed in response to a July 28, 2004, memorandum from the
   ASD(RA) to the DoD Inspector General (Appendix B). ASD(RA) requested an
   audit of ESGR because of situations regarding the financial management and
   operations of the organization. Specifically, ASD(RA) requested that we review
   contracts awarded for the past 2 fiscal years, financial records, and the
   management and control environment of ESGR. ASD(RA) also requested our
   recommendations on how to improve the financial control environment and
   oversight of ESGR to improve efficiency and preclude a reoccurrence of the
   existing conditions. As a result, we evaluated the operations and the financial
   management of the ESGR and determined whether contracting and financial
   operations were conducted in accordance with applicable policies and regulations.

   To obtain an understanding of ESGR operations, we visited, contacted, and
   conducted interviews with officials from the following organizations:

          •   ASD(RA);

          •   ESGR headquarters, and committees of Arizona, California, Georgia,
              North Carolina, and Tennessee;

          •   Defense Finance and Accounting Service;

          •   Defense Human Resource Activity;

          •   Defense Logistics Agency;

          •   DCC-W;

          •   Odyssey, Alpharetta, Georgia;

          •   TKCC, Fairfax, Virginia;

          •   Department of the Interior, National Business Center, Fort Huachuca,
              Arizona; and

          •   Department of the Treasury, FedSource, Baltimore, Maryland.

   We reviewed procedures ESGR used to administer and manage operations,
   specifically the functions of financial management and contracting. We also
   reviewed ESGR documentation such as policies and procedures, operating
   memorandums and manuals, and other internal guidance.

   We judgmentally selected for review a sample of 100 travel vouchers (50 from
   FY 2003 and 50 from FY 2004). We also judgmentally selected for review a
   sample of 80 expense vouchers (40 from FY 2003 and 40 from FY 2004). We
   reviewed the methodology and calculations ESGR used in preparing the travel
   and expense vouchers to determine if they were completed according to
   applicable policies and procedures.


                                      29
We reviewed the fulfillment contracts with Odyssey; and the personnel services
contracts with TKCC, FedSource, and AM and PM. We reviewed the contracting
procedures DCC-W, the Department of the Interior, and the Department of the
Treasury used in awarding contracts for ESGR. We reviewed contract and
surveillance documentation such as basic contracts, their task orders and
modifications, COR designation letters, statements of work, and sole-source
justifications.

We reviewed Office of Management and Budget Circular A-123, “Management
Accountability and Control,” June 21, 1995, and DoD Directive 5010.38,
“Management Control (MC) Program,” August 26, 1996, to determine policy
guidance regarding management controls. In addition, we reviewed GAO
“Standards for Internal Control in the Federal Government,” November 1999, to
highlight the standards for effective internal controls.

We reviewed the FAR and Defense FAR Supplement to identify guidance related
to contract award and administration. We reviewed the DoD Financial
Management Regulation to determine financial management policy and
procedures. We reviewed the Joint Travel Regulations to determine Federal
policies and procedures for temporary duty travel. We reviewed
DoD Instruction 1100.21, “Voluntary Services in the Department of Defense,”
December 26, 2002, to determine policies and procedures governing volunteer
service in the DoD.

We performed this audit from July 2004 through August 2005 in accordance with
generally accepted government auditing standards.

Use of Computer-Processed Data. We used data from the Appropriated
Accounting System, generated by the Defense Logistics Agency from the Defense
Finance Accounting Service Defense Business Management System, to determine
the number and amount of ESGR financial transactions for FY 2003 and FY
2004. We also used data provided by Odyssey to determine the quantity and
amount of items expended for the fulfillment contracts. We did not perform a
formal reliability assessment of the computer-processed data because that was not
part of our audit objectives. We traced the computer-processed data to source
documentation to determine if transactions were complete, accurate, and
supportable. We did not find errors that would preclude us from using the data to
meet the audit objectives or that would change the conclusions in this report.

Use of Technical Assistance. The Quantitative Methods Division provided
technical assistance to the audit staff in identifying judgmental samples of
FY 2003 and FY 2004 ESGR reimbursement vouchers for travel and personal
expenses.

Government Accountability Office High-Risk Area. The GAO has identified
several high-risk areas in DoD. This report provides coverage of the DoD
Financial Management and DoD Contact Management high-risk areas.




                                   30
Prior Coverage
      During the last 5 years, GAO and the Army Reserve Internal Review have issued
      three reports related to the operations of ESGR. Additionally, GAO and the DoD
      Inspector General (IG) have issued numerous reports regarding contract award
      and administration. The following reports are those we considered most relevant
      to the issues discussed in this report. Unrestricted GAO reports can be accessed
      over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
      accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
      Provide Convenience, but Value to DoD is Not Demonstrated,” July 2005

      GAO Report No. GAO-05-274, “Opportunities to Improve Surveillance on
      Department of Defense Service Contracts,” March 2005

      GAO Report No. GAO-02-608, “Reserve Forces: DoD Actions Needed to Better
      Manage Relations between Reservists and Their Employers,” June 2002

DoD IG
      DoD IG Report No. D-2004-057, “Contracts Awarded for the Coalition
      Provisional Authority by the Defense Contracting Command-Washington,”
      March 18, 2004

Army Reserve Internal Review
      Report No. 2002-37, “Follow-Up Audit of Financial Management National
      Committee of Employer Support for the Guard and Reserve (NCESGR),
      Practices, Army Reserve IR [Internal Review] Report 50-01,” October 31, 2002

      Report No. 50-01, “Audit of Financial Management Practices National
      Committee of Employer Support for the Guard and Reserve (NCESGR),”
      September 25, 2001




                                         31
Appendix B. Assistant Secretary of Defense for
            Reserve Affairs Audit Request




                       32
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Assistant Secretary of Defense (Reserve Affairs)
      Executive Director, National Committee for Employer Support of the Guard and
         Reserve
   Director, Defense Human Resources Activity
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Office of the Administrative Assistant to the Secretary of the Army
   Commander, Defense Contracting Command-Washington
Chief, Army Reserve/Commanding General, U.S. Army Reserve Command
Director, Army National Guard
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Chief of Navy Reserve/Commander, Navy Reserve Force
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief, Air Force Reserve/Commander, Air Force Reserve Command
Director, Air National Guard
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                         33
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Chief, National Guard Bureau

Non-Defense Federal Organizations
Office of the Inspector General, Department of Interior
Office of the Inspector General, Department of Treasury
Office of the Inspector General, General Services Administration
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          34
Assistant Secretary of Defense for Reserve
Affairs and National Committee for Employer
Support of the Guard and Reserve




                      35
36
37
38
39
40
41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda Scott
Shelton Young
Richard Vasquez
Sean Davis
Suk Webb
Michael Roark
Mackensie Ryan
Julie Zarlengo
Nicole Shrift
Jillisa Milner
Sharon Carvalho
Kandasamy Selvavel
James Hartman
